                Review of Internal Control Over Financial Accounting
                For Obligations, Expenditures and Accounts Payable
                            Report No. 01-04, April 6, 2001

Executive Summary

The Railroad Retirement Board is a Federal agency in the executive branch of government
with an administrative appropriation that exceeded $90 million in fiscal year (FY) 2000.

The objective of this audit was to determine whether internal control was adequate to
ensure proper accounting and reporting of administrative obligations, expenditures, and
accounts payable during FY 2000. The scope of this audit was limited to goods and
services procured in support of agency administrative activities, excluding the salary and
benefits of agency personnel. The RRB recognized nearly $19 million of such expense in
its financial statements for FY 2000.

During FY 2000, internal control was generally adequate to ensure proper accounting and
reporting of obligations, expenditures, and accounts payable to permit the preparation of
financial statements that are free of material misstatement. However, we did identify
weaknesses in internal control that adversely impact the agency’s ability to ensure
compliance with laws and regulations and safeguard assets.

Our tests of internal control disclosed that current agency procedure does not provide for
the identification of procurements that may not have been processed subject to applicable
management controls. As a result, transactions may not be executed in accordance with
applicable law, implementing regulation and management policy. In addition, valid
obligations may not be accurately recorded and reported.

Our examination of system security profiles in the agency’s automated financial
management system disclosed a lack of separation of duties that permits a few individuals
to execute all key aspects of disbursement transactions which increases the RRB’s risk of
loss from error or fraud.

As a result of our audit, management officials have issued memoranda to agency
personnel concerning their responsibilities in the procurement process and obtained the
opinion of legal counsel about specific appropriation management issues. In addition to
these actions, the OIG has recommended that the agency take action to address the
problem of procurements that circumvent established management controls and the
weakness related to lack of separation of duties in disbursement-related activities.

Our report also presents two additional matters for management’s information without
recommendation for corrective action.

   -- Our analysis of payment vouchers processed during the first nine months of FY 2000
   indicated that the receiver, a feature of the automated financial management system
   used to record receipt and acceptance of goods and services, may be under-used.

   -- Our sample review identified a case in which claim folder documentation did not
   include the identity or signature of the claims examiner who authorized payment to a
   medical consultant as required by Office of Program’s procedure. Because the
transaction was fully documented on the agency’s automated financial management
system, this omission was not classified as an error for audit purposes.

The Bureau of Fiscal Operations has taken, or plans to take, corrective action to
strengthen internal control as recommended in this report. In addition, the Bureau of
Supply and Service expects new procedures for the acceptance of goods/services and
certifying invoices to be issued in the near future. These new procedures are expected
to address concerns that the automated receiver may be under-used.

Introduction

This report presents the results of the Office of Inspector General’s (OIG) review of
internal control over financial accounting for obligations, expenditures and accounts
payable.

Background

The Railroad Retirement Board (RRB) is a Federal agency in the executive branch of
government with an administrative appropriation that exceeded $90 million in fiscal
year (FY) 2000.

The RRB administers the health and welfare provisions of the Railroad Retirement Act
(RRA) which provides retirement-survivor benefits for eligible railroad employees, their
spouses, widows and other survivors. During FY 2000 approximately 724,000
annuitants received benefits totaling $8.3 billion under the RRA.

The RRB also administers the Railroad Unemployment Insurance Act (RUIA) which
provides unemployment and sickness insurance to workers in the rail industry. During
FY 2000, the RRB paid $76.5 million to the 14,000 individuals qualifying for
unemployment benefits and 23,000 individuals qualifying for sickness benefits under
the RUIA.

The RRB prepares annual financial statements on the accrual basis of accounting in
accordance with the principles and standards prescribed by the General Accounting
Office (GAO), the Office of Management and Budget (OMB) and the Federal
Accounting Standards Advisory Board (FASAB).

Internal control is an integral component of an organization’s management that
provides reasonable assurance concerning the effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and
regulations. Pursuant to the provisions of the Federal Managers’ Financial Integrity Act
of 1982, the GAO has issued standards for internal control in government. These
standards provide the overall framework for establishing and maintaining internal
control and for identifying and addressing major performance and management
challenges.
The Federal Financial System (FFS) is the mainframe software application that
supports the agency’s financial management operations including the financial
statement reporting process.

The following terms have unique meaning in the Federal financial management
environment:

-- obligation refers to the dollar amount of the orders placed, contracts awarded,
services received, and other transactions occurring during a given period that would
require payment (expenditure) during the same or future period;

-- expenditures occur when checks are issued, cash is disbursed or funds are
transferred to liquidate a Federal obligation; and

-- accounts payable are amounts owed to others for goods and/or services received.

The RRB’s strategic plan states that “we will safeguard our customers’ trust funds
through prudent stewardship” as the agency’s second strategic objective in meeting its
overall goal of providing excellent customer service. This audit addresses this
important area of management performance.

Objective, Scope and Methodology

The objective of this review was to determine whether internal control was adequate to
ensure proper accounting and reporting of administrative obligations, expenditures,
and accounts payable during FY 2000.

The scope of this audit was limited to goods and services procured in support of
agency administrative activities. The RRB recognized nearly $19 million of such
expense in its FY 2000 financial statements. Specifically excluded from the scope of
this audit were the salary and benefits of agency personnel as well as benefits paid
under the RRA and RUIA program which are a program, rather than administrative,
expense.

In order to achieve our objective, we:

-- reviewed applicable laws and regulations;

-- interviewed personnel in the Office of Programs and the Bureau of Fiscal Operations
(BFO);

-- reviewed management’s internal control risk assessments;

-- tested internal controls by reviewing samples of payments made during the first nine
months of FY 2000;
   -- reviewed the FFS security profiles of selected employees;

   -- reviewed a listing of expenditures for which the payment amount exceeded the
   amount of a previously established obligation;

   -- analyzed the use of FFS receivers in conjunction with payment vouchers; and

   -- reviewed the general ledger entries created by FFS.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted on-site at RRB
headquarters during April 2000 through January 2001.

Results of Review

Our review determined that, during FY 2000, internal control was generally adequate to
ensure proper accounting and reporting of obligations, expenditures, and accounts
payable. However, we identified the following control weaknesses:

   -- invoice approval procedures permit payment for goods or services that may not have
   been subject to the management controls designed to ensure compliance with laws
   and regulations, and

   -- a lack of separation of duties over cash disbursements that diminishes the agency’s
   ability to prevent errors and fraud.

We identified two procurements that were processed to payment outside of the
established network of management controls. We have also questioned the agency’s
compliance with applicable legal and regulatory requirements. However, we did not
identify any instances in which the lack of separation of duties resulted in a loss to the
government.

A detailed discussion of our findings and recommendations follows.

Internal Control Is Adequate for Financial Reporting

Internal control over obligations, expenditures and payables is adequate to ensure the
reliability of financial reporting. Although we identified weaknesses in the implementation
and design of internal control, those weaknesses do not adversely impact the ability of
agency management to prepare financial statements that are free of material
misstatement.

OMB Bulletin 01-02, “Audit Requirements for Federal Financial Statements,” describes
internal control, as it relates to the financial statements of Federal agencies, as a process
designed to provide reasonable assurance that the following objectives are met:
   -- transactions are properly recorded, processed, and summarized to permit the
   preparation of the financial statements in accordance with generally accepted
   accounting principles;
   -- transactions are executed in accordance with laws governing the use of budget
   authority and other laws and regulations that could have a direct and material effect on
   the principal financial statements; and
   -- assets are safeguarded against loss from unauthorized acquisition, use, or
   disposition.

Financial Reporting

The present system of internal control is adequate to ensure that obligations, expenditures
and payables are recorded, processed, and summarized in a manner that will permit
preparation of agency financial statements in accordance with generally accepted
accounting principles.

We conducted tests of transactions, on a sample basis, to determine whether controls
have been implemented, are operating as designed and constitute an effective control.
Since sampling involves an examination of less than the entire population of transactions,
we cannot conclude that existing controls, whether considered individually or collectively,
are 100% effective.

Our audit tests did identify some transactions that were processed to payment outside of
the framework of established controls. These payments, which totaled $88,000, were not
recorded in the FFS system until the vendor invoice was submitted and payment was
authorized. In one case, the agency’s promise to pay $6,000 in future vendor travel costs
remained unrecorded on September 30, 2000.

However, we can conclude that at least 95% of transactions are being processed within
the established control framework. This outcome provides the assurance concerning the
effectiveness of internal control that is required to support financial reporting.

Compliance with Laws and Regulations

The RRB has implemented controls designed to ensure agency compliance with laws and
regulations that govern activities such as appropriation management and the timeliness of
payment to vendors of goods and services.

These controls are centered in the FFS system that is used to record and process the
agency’s financial obligations, expenditures and accounts payables. This process begins
with the initial commitment of funds by requisition through acceptance of the goods or
services and the final liquidation of the account payable with a cash disbursement. The
FFS is also used to coordinate and record the approval process and manage the agency
budget.
Our review determined that the controls designed to ensure compliance with applicable
laws and regulation were operating. However, we identified two training procurements that
had circumvented the major management controls designed to ensure legal and regulatory
compliance. As a result, we cannot conclude that internal control is adequate to ensure
compliance with laws and regulations governing the procurement process or the
management of appropriated funds.

BFO staff records receipt of an invoice for goods or services on FFS and processes
payment through the automated system. However, if an invoice for goods or services is
received that has not previously been recorded on FFS as a purchase order or
miscellaneous obligation, BFO requests an authorizing signature from the responsible
organizational unit prior to processing the payment. The current control structure does not
provide for questioning or rejecting invoices approved in this manner. As a result, payment
may be made for goods or services that have not been subject to the appropriate
management review and approval process that is centered in FFS.

Although the exceptions identified by the audit represent a weakness in the design of
internal control, they do not adversely impact the ability of agency management to prepare
financial statements that are free of material misstatement.

Safeguarding of Assets

The RRB has implemented internal controls designed to ensure that assets, in this case
funds deposited to the agency’s account with the Department of the Treasury, are
safeguarded against loss from unauthorized acquisition, use, or disposition.

The FFS is password protected to prevent unauthorized access. In addition, the FFS
includes a core security system that limits the privileges of FFS users to the specific
activities determined by the requirements of their job description. These security profiles
mirror the separation of duties that exists in agency operations.

We reviewed FFS security profiles for selected individuals and observed that, in most
cases, system access and authorizations have been appropriately assigned. However,
we did identify several exceptions in which individuals had authorization to initiate
transaction processing in a manner that exposes the agency to risk of loss.

Although the exceptions identified by the audit represent a weakness in the
implementation of internal control, they do not adversely impact the ability of agency
management to prepare financial statements that are free of material misstatement.

Procurement Controls Can Be Circumvented

Internal control should provide reasonable assurance that transactions are executed in
accordance with applicable laws and regulations. Although the RRB has established
internal procedures designed to ensure such compliance, transactions may be processed
to payment without being subject to established controls.
Current agency procedure does not provide for the identification of procurements that may
not have been processed subject to applicable management controls. As a result,
transactions may not be executed in accordance with applicable law, implementing
regulation and management policy. In addition, valid obligations may not be accurately
recorded and reported.

Our audit identified two agreements executed using procedures intended for training
procurements that should have been handled as service contracts. (The individual who
initiated these procurements has stated that they were not aware that other procedures
might apply.) Under current agency procedure, service contracting is subject to a more
thorough review and approval process than is required for simple training procurements.

Payments totaling $88,000 were disbursed without being subject to the management
controls that provide for the review of service contracts for compliance with the Federal
Acquisitions Regulations (FAR) and appropriations law. In addition, the agency’s
obligation to pay an additional $6,000 in vendor travel expenses remained unrecorded at
fiscal year-end. These agreements were executed at the bureau level without the
involvement of the Bureau of Supply and Service.

Responsibility for the training of agency personnel has been delegated to the various
organizational units within the RRB. Each unit is authorized to plan and execute training
agreements using form SF-182, “Request, Authorization, Agreement and Certification of
Training.” Delivery of a signed SF-182 to a training vendor obligates the government to
pay for training services.

However, the SF-182 is designed to process training requests for individuals. In the cases
questioned by the audit, the SF-182 was used to obligate the government for payment of
bulk and group training agreements for which it was not designed. These agreements
were valued at $66,000 and $28,000 ($22,000 for training, $6,000 for vendor travel),
respectively, of which $88,000 was paid in advance.

Training agreements processed using form SF-182 can be processed to payment with
only the signature of the head of the user organization. By comparison, Basic Board Order
(BBO) 5, “Procurement, Property, Supplies and Service,” which communicates agency
procedures governing the procurement of goods and services, establishes a hierarchy of
approvals for procurements as shown below.


   LEVEL       APPROVING INDIVIDUAL OR GROUP                TYPE OF TRANSACTION
   First       Head of the User Organization                All Requisitions

   Second      Director of Supply and Service               All Requisitions

   Third       Executive Committee                          Requisitions over $25,000

   Fourth      The Three-member Board                       Requisitions over $100,000


If the training agreements questioned by the audit had been treated as service contracts,
they would have been subject to several levels of management review and approval. In
addition, the procurement of training services would have become the responsibility of the
Bureau of Supply and Service which has the expertise to ensure compliance with
applicable laws and regulation.

A discussion of the transactions questioned by the audit follows.

Bulk Training Agreement

The RRB entered into an agreement with a single vendor for 254 training units priced at
$260 each for a total of $66,040. The agreement was executed using form SF-182. A
separate form was executed for each of the two organizational units funding the
agreement. The agreement did not specify the classes to be provided, when classes
would take place or who would attend.

The forms SF-182 were executed February 11, 2000, and payment was processed based
on the vendor’s invoice that same month. No obligation of funds was recorded in the FFS
system; advance payment was approved by the user organization upon receipt of invoice.
Training valued at approximately $10,000 was still unused at September 30, 2000.

This agreement should have been handled as a service contract and subject to the
requisition approval process. In this case, because the procurement exceeded $25,000,
the agreement would have been subject to review and approval by both the Director of
Supply and Service and the RRB’s Executive Committee.

Agreement for Group Training

The RRB entered into an agreement to receive training services, valued at $22,000, at
RRB headquarters. In addition, the agency agreed to pay up to $6,000 in related travel
expenses incurred by the instructor for a total cost of $28,000.

Form SF-182 was executed August 16, 2000, and payment was processed based on the
vendor’s invoice in September. No obligation of funds was recorded in the FFS system;
payment of $22,000 was approved by the user organization directly upon receipt of
invoice; no funds related to the travel expenses were obligated or disbursed during FY
2000.

The training agreement was executed without specifying a date. The class for which the
agency had contracted and paid could not take place during FY 2000 because the RRB
personnel for whom the training was intended were not available. The class was later
scheduled to take place in March 2001.

This agreement should have been processed as a service contract and subject to the
requisition approval process. In this case, because the total cost of the procurement
exceeded $25,000 the agreement would have been subject to review and approval by
both the Director of Supply and Service and the RRB’s Executive Committee.

Compliance With Laws and Regulations
Our examination of these agreements raises issues concerning the ability of the agency to
ensure compliance with laws and regulations governing procurement activity and
appropriation management.

Because the agreements for bulk and group training services were not subject to
management controls designed to ensure compliance with Federal Acquisitions
Regulations (FAR), compliance with all applicable FAR provisions has not been assured.
The FAR includes detailed requirements that govern the various aspects of procurement
activity including:

   -- contract financing methods (payments in advance);

   -- required levels of vendor competition;

   -- limits on sole source procurement;

   -- multi-year service contracts; and

   -- contract language.


In addition, both agreements are service contracts that raise appropriation law issues
because vendor performance takes place, in full or in part, in a fiscal year other than the
one from which they were funded.

In general, services are viewed as chargeable to the appropriation current at the time the
services are rendered (GAO/OGC-91-5, Appropriations Law, Volume I, pages 5-22).

According to the GAO:

       The Comptroller General has held that the question of whether to charge the
       appropriation current on the date the contract is made or to charge funds
       current at the time the services are rendered depends on whether the
       services are “severable” or “entire.” (GAO/OGS-91-5, Appropriations Law,
       Volume 1, pages 5-22 to 5-23)

The Comptroller General has held that a single training course is a non-severable service
but that the individual courses making up a curriculum are severable. When an individual
course begins in one fiscal year and completion extends into the next, the non-severable
nature of the service justifies charging the prior year appropriation rather than the one in
effect when the course is completed or pro-rating the expense between two fiscal years.
However, individual, severable training classes that begin and end in a single fiscal year
should be charged to the appropriation in effect when the training services are rendered.

The RRB’s bulk training agreement was designed to provide individual training classes.
Course selection and attendance was not specified at the time the SF-182 was issued.
This is not an instance in which a single, non-severable course extends across fiscal years.
The classes provided under the agreement were scheduled separately for any number of
different individuals at a variety of dates and times. At the end of FY 2000, all of the
training to be provided under this agreement had not been scheduled.
The group training services to be provided on-site at RRB headquarters appear to be non-
severable. However, severability is not an issue since there was no performance under
the contract during FY 2000. The RRB did not confirm the availability of its personnel and
facilities before entering into the agreement. As a result, the agency was unable to detail
the designated staff to training before the end of the fiscal year and the class could not be
held during FY 2000.

The two agreements neither restricted contractor performance to FY 2000 nor provided an
escape clause for the RRB in the event that all services were not provided during FY 2000.

The OIG believes that the cost of training services, including vendor travel expenses,
rendered during FY 2001 under both the bulk and group training agreements should be
charged to the RRB’s FY 2001 appropriation.

In addition, if the entire agreement for group training is properly an expense of FY 2001,
the agreement may be a contract entered into in advance of the FY 2001 appropriation
and, as such, a violation of the Anti-Deficiency Act. The Anti-Deficiency Act (31 U.S.C.§
1341) prohibits Federal employees from making or authorizing an expenditure or
obligation exceeding an amount available in an appropriation for expenditure or obligation.

As a result of this audit, the Chief Financial Officer:

   •	 issued a memorandum reminding agency bureau and office heads of their financial
      management responsibilities and of the role of the FFS system in managing
      administrative funds, and

   •	 obtained the guidance of the agency’s general counsel concerning the
      appropriation law issues raised by this audit.

The RRB’s General counsel has concluded that “all of the costs for the training at issue . . .
should be chargeable to the fiscal year 2000 appropriation and that, consequently, there is
no violation of the Anti-Deficiency Act (Legal Opinion L-2001, January 5, 2001).

In addition, the Director of Supply and Service has issued a memorandum to remind top
management of the designated agency procurement officials (individuals who may commit
the RRB to contractual obligations). That memorandum also includes information
concerning the competition requirements established in the FAR.

Recommendation

We recommend that BFO develop procedures to identify invoices submitted for payment
without the prior creation of an obligating document on FFS when such invoices may
indicate that applicable agency controls have been circumvented so that remedial action
can take place (Recommendation #1).

Management’s Response
BFO has released a memorandum to bureau and office heads reminding them and their
staff to enter an obligating document on FFS at the time they expect to incur an obligation.
In addition, BFO will provide bureau and office heads with a quarterly report listing
payment vouchers processed without reference to an obligating document so that they can
take any necessary remedial action.

The full text of BFO’s response is included as Appendix I to this report.

Separation of Duties

During our review of FFS security profiles, we identified several cases in which inadequate
separation of duties increases the RRB’s risk of loss from error or fraud.

Internal control should be designed to provide reasonable assurance that agency assets
are safeguarded from unauthorized acquisition, use, or disposition through prevention or
prompt detection.

GAO’s “Standards for Internal Control in the Federal Government” states that transactions
and other significant events should be authorized and executed only by persons acting
within the scope of their authority. It also states that key duties and responsibilities need to
be divided or segregated among different people to reduce the risk of error or fraud; no
one person should control all key aspects of a transaction.

Our examination of FFS system security profiles disclosed that several members of BFO’s
staff have FFS accesses and authorizations that permit them to execute all key aspects of
a disbursement transaction. For example, these individuals can establish new vendors,
create obligations and authorize payment vouchers without obtaining a second level of
authorization at any step.

In addition, the Director of Supply and Services has FFS system accesses and
authorizations that enable him to order goods and services up to $25,000 and approve
payment without the knowledge or participation of other agency personnel. The Director of
Supply and Service was granted the standard FFS accesses for both a procurement
official and a bureau director. This circumstance, unique to this director’s position within
the agency organizational structure, creates a weakness in internal control due to lack of
separation of duties.

As a result of the instances in which the principle of separation of duties has not been fully
implemented, the RRB is exposed to increased risk of loss through error or fraud.

Recommendations

We recommend that BFO:

- modify FFS system accesses and authorizations as necessary to eliminate the instances
of inadequate separation of duties identifiedby the audit (Recommendation #2);
- establish a monetary threshold above which payment vouchers will require a second level
of authorization (Recommendation #3); and
- review FFS system security profiles to identify any other potential instances where lack of
separation of duties increases the agency’s risk of loss (Recommendation #4).

Management’s Response

BFO has implemented, or plans to implement, the recommended corrective actions.
Bureau management has modified the FFS system accesses of Treasury, Audit and Debt
Recovery Division staff to eliminate instances of inadequate separation of duties in the
processing of payment vouchers. They have also modified FFS to require a second level
of approval for payment vouchers of $100,000 or more. BFO’s Financial Management
section will review FFS system security profiles to identify any potential instances where
lack of separation of duties increases the agency’s risk of loss.

In addition, the Director of Supply and Service has stated that he never used the FFS
receiver transaction and requested that his authority to enter receivers into the FFS system
be removed as soon as the control weakness was brought to his attention.

OTHER MATTERS OF INTEREST

During the audit, we identified two matters that do not warrant recommendations for
corrective action but which may be of interest to agency management. The following
information is presented for management’s information and whatever action they may
deem appropriate.

Payment Authorization for Medical Examinations

The RRB contracts with a single vendor to provide the consultative medical opinions that
are used in the adjudication of disability claims. As part of the sample review process, we
traced 10 payment vouchers to the supporting documentation in the disability applicant’s
claim folder. In one case, the claim folder documentation did not include the identity or
signature of the claims examiner who authorized payment.

The Office of Programs Disability Benefits Division (DBD) requires the services of
medical consultants in the adjudication of claims for disability benefits. Medical
consultants review the medical evidence submitted in support of an applicant’s claim and
provide a written opinion of their evaluation of the evidence.

Unlike payment vouchers for most other goods and services which are entered into FFS by
BFO personnel upon submission of an approved invoice, payment vouchers for medical
consultant opinions are authorized by claims examiners in DBD.

A payment voucher is automatically created when the claims examiner advises the FFS
that the consultant’s opinion has been received and accepted. FFS captures the
authorizing examiner’s computer user identification as part of the audit trail for financial
accounting purposes.
In addition, the Office of Programs requires the authorizing examiner to sign the form on
which the consultant’s opinion has been submitted. The consultant’s opinion is then filed in
the applicant’s claim folder to document the authorizing examiner’s identity. An applicant’s
claim folder is subject to several reviews during the claim adjudication process and the
identity of the authorizing examiner may be of interest to future users of the evidence in the
file.

Because the transaction was fully documented on FFS, the omission of the authorizing
examiner’s signature was not considered an error for audit purposes. However,
management may have program objectives that relate to this requirement.

FFS Receiver May Be Under-used

The receiver is an FFS system document that can be used to record receipt and
acceptance of goods and services. Use of a receiver is optional. The purchase order that
is created to record the order specifies whether an automated receiver will be used to
signify acceptance. If no receiver is required, the vendor’s invoice must be manually
approved prior to processing.

The receiver feature of FFS may be under-used. We analyzed 20,651 payment vouchers
entered onto the FFS system between October 1, 1999 and June 30, 2000 (nine months).
Approximately two-thirds of the payment vouchers were processed using a receiver.
However, by special arrangement with the vendors, all payments to medical consultants
are processed using FFS receivers. (The RRB has entered into contracts that centralize
the procurement of medical consultant services that support the disability program.) Of the
remaining 8,552 payment vouchers processed, only 10% were processed with automated
FFS receiver. The following table presents the results of our analysis.


          Payment Vouchers Processed 10/01/1999 – 06/30/2000
                                                                       %
                                                                   Processe
                                                                    d with a
                                       Without A                   Receiver
                         Receiver      Receiver        TOTAL

 Medical
                            12,099                 0    12,099         100%
 Consultants
                               865           7,687        8,552         10%
 Other Vendors
             Total          12,964           7,687      20,651
                              63%             37%        100%
When a receiver is entered into FFS, the recipient of the goods or services is authorizing

the processing of payment upon submission of an invoice by the vendor. The system

captures the identity of the authorizing party and an account payable is recognized. When

the invoice is received, BFO personnel create a payment voucher on FFS.


When a receiver is not required, the recipient of the goods or services must manually

authorize payment of the invoice when it is submitted. Once manual authorization has

been received, BFO personnel will enter a payment voucher. In the absence of a receiver,

creation of the payment voucher results in recognition of the account payable.

The 20,651 payment vouchers entered during the first nine months of the fiscal year

represent goods and services valued at approximately $9.7 million of which only $4.0

million was processed using an automated receiver.


Management’s Response


The Bureau of Supply and Service expects new procedures for the acceptance of
goods/services and certifying invoices to be issued in the near future. These new
procedures are expected to address concerns that the automated receiver may be under-
used.
